A. |.

TC

K\

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

ft

No. 20-6332

RAYMOND KA-LUN PIN,
Plaintiff - Appellant,
v.
HAROLD W. CLARKE, The Director of the Virginia Department of Corrections,
Defendant - Appellee.

Appeal from the United States District Court for the Western District of Virginia, at
Roanoke. GlenE. Conrad, Senior District Judge. (7:19-cv-00011-GEC-PMS)

Submitted: July 24, 2020

Decided: August 3, 2020

Before WILKINSON and KING, Circuit Judges, and TRAXLER, Senior Circuit Judge.

Affirmed by unpublished per curiam opinion.

Raymond Ka-Lun Pin, Appellant Pro Se.

Unpublished opinions are not binding precedent in this circuit.
y

f

'

*■

PER CURIAM:
Raymond Ka-Lun Pin appeals the district court’s order denying relief on his 42
U.S.C. § 1983 (2018) complaint. We have reviewed the record and find no reversible error.
Accordingly, we grant Pin’s motions to amend and clarify his informal brief and affirm for
the reasons stated by the district court. Pin v. Clarke, No. 7:19-cv-00011-GEC-PMS (W.D.
Va. Feb. 19, 2020).

We dispense with oral argument because the facts and legal

contentions are adequately presented in the materials before this court and argument would
not aid the decisional process.
AFFIRMED

■*;

J

2

ft.3

**

FILED: August 3, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-6332
(7:19-cv-OOOl 1 -GEC-PMS)

RAYMOND KA-LUN PIN
Plaintiff - Appellant
v.

HAROLD W. CLARKE, The Director of the Virginia Department of Corrections
Defendant - Appellee

JUDGMENT
In accordance with the decision of this court, the judgment of the district
court is affirmed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR, CLERK

ft

V

4
¥

Wm

Y

Wl

AT ROANOKE, VA
FILED

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF VIRGINIA
ROANOKE DIVISION
RAYMOND KA-LUN PIN,
Plaintiff,

)
)

FEB 1 9 2020

CASE NO. 7:19CV00011

)

v.

MEMORANDUM OPINION

)
)

HAROLD W. CLARKE,
Defendant.

By: Hon. Glen E. Conrad
Senior United States District Judge

)
)

The plaintiff, Raymond Ka-Lun Pin, a Virginia inmate proceeding pro se, alleges that
prison officials have violated his constitutional rights by refusing to remove false information from
his central file, resulting in the withholding of a portion of his income to be reserved for his release.
/

“

After review of the record, the court concludes that Pin’s claim must be summarily dismissed.
I. BACKGROUND
Pin is serving a prison sentence consisting of three life terms plus eighty years for the
following criminal offenses committed in 1989 in Halifax County: three counts of capital murder
(one count for killing multiple persons and two counts for murder in the course of felony robbery),
unauthorized use of a vehicle, and two counts of robbery. According to state court records online,
a Halifax County grand jury returned an indictment charging Pin with these crimes in March 2001.
He pleaded not guilty. After a trial in November 2001, a jury found him guilty on all charges.
At the separate sentencing phase of the trial, jurors had the choice to recommend a sentence
of death or imprisonment for life on each of the capital murder convictions, and a choice of life or
a term of years in prison on each of the robbery convictions. Among the trial judge’s instructions
to the jury was Instruction Number 3 A, which stated, “The words imprisonment for life mean[]
imprisonment for life without the possibility of parole.” Mem. Opp’n Mot. Summ. J. Ex. 1, at 6,
ECF No. 17-2. The judge reminded jurors at least two more times that Instruction Number 3 A
applied to the capital murder convictions. In the closing arguments, the prosecutor stated, “[Tjhere

I

\

I

b'2-

■ L

are three capital murder convictions—and in either one of them the alternative is either life
imprisonment without the possibility of parole or death.” Id at 9. The jury returned verdicts
recommending that Pin be sentenced to life imprisonment for each of the capital murder
convictions, a term of five years for the unauthorized use of a vehicle, and terms of twenty-five
and fifty years in prison for the two robberies. On February 28, 2002, the judge imposed the
sentences recommended by the jury. ^The court entered a Nunc Pro Time Order on March 11,
2002, to be effective as of February 28, 2002, which stated that Pin was sentenced to
. *

“imprisonment for life” on each of the capital murder convictions. Id at Ex. 2. Pin’s appeals and
state habeas corpus proceedings were unsuccessful^
Under Virginia law, the authorized punishments for capital murder are “death ... or
imprisonment for life,” with the additional, possible penalty of a fine. Va. Code Ann. § 18.2-10(a).
With certain exceptions, “[a] person who has been sentenced to two or more life sentences . . .
shall be eligible for parole after serving twenty years of imprisonment.” Va. Code Ann. § 53.1(“Anyperson sentenced to a term of incarceration for a felony offense committed
on or
151(D).
after January 1,1995, shall not be eligible for parole upon that offense.” Va. Code Ann. § 53.1165.1.
Pin became a state-responsible inmate on March 5, 2002, and he has been confined since
then in the custody of the Virginia Department of Corrections (“VDOC”). Under the circuit court’s
orders and findings regarding Pin’s offense dates and the Virginia laws applicable to his offenses,
VDOC staff has calculated his projected discretionary parole eligibility date (“DPED”) as July 30,
2026. This date is based on two factors: (1) a requirement that an inmate sentenced to multiple
life terms must satisfy a minimum of thirty years of those sentences before becoming eligible for
discretionary parole; and (2) Pin’s earning of sentence credits under the Good Conduct Allowance
(“GCA”) system.
2

S>-3>

f

Pursuant to Va. Code Ann. § 53.1-43.1, the VDOC must withhold ten percent of all funds
an inmate receives from any source and deposit such monies to that inmate’s personal trust account
(“PTA”) until $1,000 is accumulated. The accumulated funds in the PTA are intended as a reentry
savings account that will be paid to the inmate upon his release on parole or final discharge of his
sentence. Inmates who are sentenced to terms of life without the possibility of parole are exempt
from the reentry savings requirement. Id. If an inmate retains the possibility of discretionary
parole release, however, VDOC staff are to establish and withhold funds in a PTA for him to
receive when released.
Pin “acknowledged the existence of the (DPED) record when the business office of Keen
Mountain Correctional Center deducted 10% of all Pin’s incoming funds in the year 2012.”
. Compl. 7, ECF No. 1. At the time Pin filed his § 1983 complaint, VDOC staff had withheld ten
percent of his incoming funds and placed them in his PTA approximately “70 times (once a month
since 2012).” Id. at 12. Pin has informed VDOC officials numerous times that the trial judge
defined his capital murder sentences to the jury as imprisonment for life without the possibility of
parole, which would make him ineligible for parole and exempt from the PTA withholding
requirement under § 53.1-43.1.
Pin’s § 1983 complaint names the VDOC director, Harold Clarke, as the only defendant.
Pin contends that VDOC officials have refused to correct the record to match the trial judge’s
intention that Pip should serve life sentences without the possibility of parole, thus violating Pin’s
constitutional right to due process. As relief, Pin seeks declaratory and injunctive relief and return
of the monies withheld in his PTA.
. The defendant has filed a motion for summary judgment, construing Pin’s claim as arising
under the Takings Clause of the Fifth Amendment and arguing that it was untimely filed. In

3

r
/

13,

*

opposition to these arguments, Pin denies that he has raised a claim under the Takings Clause and
insists his claim is timely filed, because the due process violations have been ongoing.
II. DISCUSSION
A. The Statute of Limitations.
Pin presents his claims under Section 1983, a statute that permits an aggrieved party to file
a civil action against a person for actions taken under color of state law that violated his
constitutional rights. Cooper v. Sheehan. 735 F.3d 153, 158 (4th Cir. 2013). Because Congress
did not include time limits in the statute for filing a § 1983 action, such cases are governed by the
statute of limitations applicable to general personal injury actions in the state where the tort
allegedly occurred. See Owens v. Okure. 488 U.S. 235,239,250 (1989).
In Virginia, the limitations period for general personal injury claims is two years. See Va.
Code Ann. § 8.01-243(A). Thus, Pin had two years from the date when his § 1983 claim accrued
to file a federal lawsuit. A Soc’v Without A Name v. Virginia. 655 F.3d 342,348 (4th Cir. 2011).
It is well established that “a cause of action [under § 1983] accrues when the plaintiff possesses
sufficient facts about the harm done to him that reasonable inquiry will reveal his cause of action.”
Nasim v. Warden. Md. House of Corr.. 64 F.3d 951, 955 (4th Cir. 1995) (citing United States v.
Kubrick. 444U.S. Ill, 123 (1979)).
The defendant asserts that based on facts clear from Pin’s complaint, his claim in this action
accrued in 2012, the first year when VDOC staff withheld funds from his income and placed them
in his PTA to be paid to him upon release. By the end of 2012, Pin knew about the past PTA
withholdings and knew that they would continue in the future, until the account reached $1,000 or
was paid out to him when released. Thus, the defendant argues, Pin had a duty by sometime in
2012 to inquire into any other factual or legal details necessary to bring his lawsuit sometime in
2014, within the two-year limitations period under Va. Code Ann. § 8.01-243(A).
4

*

As stated, Pin argues that his § 1983 claim is not untimely, because VDOC staff have
continued their due process violation—by refusing to correct the alleged mischaracterization of
his life sentences as parole-eligible and by continuing to withhold funds for his PTA. This
argument has merit. It is well established that “[a] continuing violation is occasioned by continual
unlawful acts, not continual ill effects from an original violation.” Nat’l Advert. Co. v. City of
Raleigh. 947 F.2d 1158, 1166 (4th Cir. 1991) (internal quotation marks and citation omitted). It
is undisputed that during the two-year period preceding the commencement of his § 1983 action,
VDOC staff continued to characterize Pin’s life sentences as parole-eligible and to withhold
monies for his PTA account. Because Pin’s claim concerns alleged due process violations that
occurred within the statutory limitations period and, by his own characterization, do not involve
an unconstitutional taking in violation of the Fifth Amendment, the court will deny the defendant’s
motion for summary judgment. Nevertheless, for other reasons, the court concludes that Pin’s
•

-

■ -i-

■

'

'

'

‘

. •

'

;

§ 1983 claim must be summarily dismissed as lacking merit.
B. The Due Process Claim
Prisoners may not be deprived of life, liberty, or property without due process of law. See
Wolff v, McDonnell. 418 U.S. 539, 556 (1974). However, the Due Process Clause applies only
when government action deprives an individual of a protected liberty or property interest. See Bd.
of Regents of State Colls, v. Roth. 408 U.S. 564 (1972). “A liberty interest may arise from the
Constitution itself, by reason of guarantees implicit in the word liberty, or it may arise from an
expectation or interest created by state laws or policies.” Wilkinson v. Austin. 545 U.S. 209,221
(2005) (citations omitted). “[I]n certain limited circumstances a claim of constitutional magnitude

/

To state a § 1983 claim, a plaintiff must establish that he has been deprived of rights guaranteed by the
Constitution or laws of the United States and that this deprivation resulted from conduct committed by a person acting
under the color of state law. West v. Atkins. 487 U.S. 42,48 (1988). A complaint filed by an inmate challenging the
conduct of an “officer or employee of a governmental entity” may be dismissed under 28 U.S.C. § 1915A(b)(l) if the
complaint is “frivolous, malicious or fails to state a claim upon which relief may be granted.”
5

6*4
is raised where a prisoner alleges that (1) “particular information is contained in his file”; (2) “tl e
/

information in his file is false”; (3) “the information is relied on [or is likely to be relied on] to a
constitutionally significant degree”; and (4) he has asked prison officials in writing to remove the
inaccurate information from his file, but they have refused to do so. Paine v. Baker. 595 F.2d 197,
201-02 (4th Cir. 1979) (recognizing right for inmate who claimed false information in his parole
file was preventing him from being granted discretionary parole).
As stated, the defendant’s motion did not address Pin’s claim as one arising under Paine v.

A

Baker.2 The court concludes, however, thajpin fails to allege facts necessary to state an actionable
due process claim under Paine, because he has not shown that his file contains false information
about the nature of his life sentences^ It is undisputed that Pin’s offenses occurred in 1989 and
that the circuit court’s written sentencing order imposes a sentence of imprisonment for life for his
capital murder convictions. ^Under Virginia law, an inmate sentenced to imprisonment for lifh-fox
offenses committed before January. 1.1995. is eligible for parole.^ Va. Code Ann.

§§53.1-151(D);]

53.1-165.1. |lphTdoes not allege or present evidence indicating that the trial judge, in verbally

. ym

pronouncing Pin’s sentences, expressly stated that Pin was not eligible for parole under Virginia

.

law on his life sentences. At the most, Pin’s complaint alleges that the trial judge erroneously*
instructed the jury, and the prosecutor argued to them, that a life sentence for Pin’s offenses meant
no possibility of parole. While the court and the prosecutor thus rendered an inaccurate statement
•ir

of the law applicable to Pin’s offenses, these statements alone did not change applicable Virginia
2 The defendant asserts that, to the extent Pin seeks to correct his sentence to serve a life sentence without
the possibility of parole as the trial judge allegedly intended, his claim is more properly brought in a habeas corpus
action. Because such a claim concerns the length of Pin’s confinement and the interpretation of orders sentencing him
to that incarceration, the defendant’s habeas argument has some merit. See Preiser v. Rodriguez. 411 U.S. 475 (1973)
(if the core of litigant’s claim concerns the fact or duration of his confinement, then claim must be raised in habeas
corpus, not under § 1983). The defendant requests additional time to brief habeas issues, if the court so construes
Pin’s submissions. Because the court herein determines that Pin has failed to state a. § 1983 due process claim under
Paine, however, the court does not fmd additional briefing from the defendant to be warranted. Moreover, if Pin
wishes to correct the calculation of his life sentences to eliminate the possibility of parole, he must first file a state
court habeas corpus petition raising that contention. See 28 U.S.C. § 2254(b). Because he makes no mention of
pursuing state court remedies as to this claim, the court declines to construe his present submissions as a § 2254
petition.
6

i

i

0.7
law concerning Pin’s parole eligibility.^ jjvithout any allegation that the trial court, nevertheless /
did sentence Pin to life without the possibility of parole, the court cannot find that Pin’s
submissions support a reasonable inference that his VDOC file contains false information about
his eligibility for parole on his life sentences or about the lawfulness of the VDOC’s withholding
of his incoming funds for his PTA under Va. Code Ann. § 53.1-43JJ Accordingly, the court will
■C"p

summarily dismiss Pin’s Paine v. Baker claim, pursuant to 28 U.S.C. § 1915A(b)(l), for failure to
state a claim. An appropriate order will issue herewith.
The court will mail a copy of this memorandum opinion and the accompanying order to
plaintiff and to counsel of record for the defendant.
ENTER: This 5^ day of February, 2020.

Senior United States District Judge

7

B-3

■4*

filed

FEB 1 9 2020
IN THE UNITED STATES DISTRICT COURT
JULL
FOR THE WESTERN DISTRICT OF VIRGINIA BY:
ROANOKE DIVISION
RAYMOND KA-LUN PIN,
Plaintiff,

DUDLEY. CLERK

)
)

CASE NO. 7:19CV00011

)

v.

)

FINAL ORDER

)

HAROLD W. CLARKE,
Defendant.

)
)

By: Hon. Glen E. Conrad
Senior United States District Judge

In accordance with the accompanying memorandum opinion, it is hereby
ADJUDGED AND ORDERED
that the defendant’s motion for summary judgment, ECF No. 13, is DENIED; the plaintiffs due
process claim is DISMISSED, pursuant to 28 U.S.C. § 1915A(b)(l); and the clerk shall close the
case.
ENTER: This ^ day of February, 2020.

Senior United States District Judge

."S

\

4

>

J

4
FILED: October 6, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-6332
(7:19-cv-00011-GEC-PMS)

RAYMOND KA-LUN PIN
Plaintiff - Appellant
v.

HAROLD W. CLARKE, The Director of the Virginia Department of Corrections
Defendant - Appellee

ORDER
The court denies the petition for rehearing and rehearing en banc. The court
will grant the motion to amend the petition for rehearing. No judge requested a poll
under Fed. R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Judge Wilkinson, Judge King, and
Senior Judge Traxler.
For the Court
/s/ Patricia S. Connor, Clerk

•M

